No. 21-152
IN THE

~upreme QCourt of tbe Wniteb ~tatesESTATE OF MADISON JODY JENSEN,
EX REL. JARED JENSEN,

Petitioner,
V.

KENNON TUBBS,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33. l(h), I hereby certify that the Reply in
Support of Certiorari in Estate of Jensen ex rel. Jensen v. Tubbs, No. 21-152, complies
with the word limitations, as it contains 2,749 words.
I declare under penalty of perjury that the foregoin

Date: September 17, 2021

